                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0
                     Reporting Entity: Department of Transportation ‐ OIG
                   Month Ending Date: 09/30/2009

                                                        Recovery Act Funds Used on Recovery Act Activity
               Agency / Bureau                   Recovery Act TAFS         Obligation Type   US Indicator        State Code          Total Obligations     Total Gross 
                                                                                                              (ONLY for grants                               Outlays
                                                                                                              and cooperative 
No.                                                                                                             agreements)
      Department of Transportation ‐       (69‐0131 2009 \ 2013)               Other            Y ‐ US                                   $379,668          $348,860 
      OIG                                  Transportation ‐ OIG ‐ 
  1                                        Recovery Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                              Non-Recovery Act Funds Used on Recovery Act Activity
               Agency / Bureau                Non‐Recovery Act TAFS         Total FY 2009    Total FY 2009     Total FY 2010        Total FY 2010 Gross 
                                                                             Obligations     Gross Outlays      Obligations               Outlays
No.
      Department of Transportation ‐ OIG   (69-0130 2009) Transportation     $1,571,665       $1,422,302             N/A                   N/A
  1                                        - OIG
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                                                                                           DOT OIG Monthly Report Num 7 09-30-09
                                                                             OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 2 of 4) Version 4.0
        Reporting OIG: Department of Transportation ‐ OIG
    Month Ending Date: 09/30/2009

      FTE Working on Recovery                           Testimonies:
       Newly Hired FTE 
                          0.77                    Provided (monthly):    0
          (cumulative):
         FTE Funded by 
    Recovery Act Funds    1.54                  Provided (cumulative):   3
          (cumulative):
     FTE Not Funded by 
    Recovery Act Funds    15.20
          (cumulative):

                                                                                                                     Audits / Inspections / Evaluations / 
             Complaints                   Whistleblower Reprisal Allegations               Investigations                                                          Training / Outreach
                                                                                                                                   Reviews
            Monthly Data                             Monthly Data                          Monthly Data                         Monthly Data                          Monthly Data
                                                                                                                                                                      Training Sessions 
              Received:       30                             Received:   0                          Opened:      2           Initiated (this month):   2                                    9
                                                                                                                                                                             Provided:
                                                                                                                        In Process (as of the end of 
                                                             Accepted:   0                            Active:    7                                    3            Individuals Trained:    503
                                                                                                                                        the month):

                                                                                                                        Completed Final Published                     Hours of Training 
                                                                                           Pending Decision:     4                                     0                                 503
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published                  Outreach Sessions 
                                                                                       Closed without Action:    0                                     0                                    6
                                                                                                                                    Work Products:                         Conducted:

                                                                                                                                Unpublished Work 
                                                                                    Accepted for Prosecution:    0                                     0
                                                                                                                                       Products*:
                                                                                        Prosecution Denied:     0
                                                                                     Referred for Alternative 
                                                                                                                0
                                                                                                  Resolution:
  Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009    Cumulative Data Since 2/17/2009         Cumulative Data Since 2/17/2009

                                                                                                                        Completed Final Published                     Training Sessions 
              Received:       162                            Received:   0             Closed without Action:    0                                     4                                 189
                                                                                                                                 Work Products:                              Provided:

                                                                                                                         Priority Interim Published 
                                                             Accepted:   0          Accepted for Prosecution:    6                                     0            Individuals Trained: 7,552
                                                                                                                                    Work Products:

                                                                                                                                Unpublished Work                      Hours of Training 
                                                                                         Prosecution Denied:     0                                     0                                 7,552
                                                                                                                                        Products:                            Provided:
                                                                                     Referred for Alternative                                                        Outreach Sessions 
                                                                                                                 1               Cumulative Total:     4                                 110*
                                                                                                  Resolution:                                                              Conducted:
                                                                                          Cumulative Total:      7
* Number adjusted to exclude outreach to Federal entities.


                                                                                                                                                       DOT OIG Monthly Report Num 7 09-30-09
                                                 OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 3 of 4) Version 4.0
      Reporting OIG: Department of Transportation ‐ OIG
  Month Ending Date: 09/30/2009

       No.                       OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            On September 3, 2009, we initiated an audit of FAA’s Process for Awarding ARRA Grants for Airport Projects
                     On September 9, 2009, we initiated an audit of DOT's Operating Administrations' plans for ensuring Recovery Act fund
        2            recipients submit accurate, complete, and timely data on the use of these funds, as required by Section 1512 of the
                     Recovery Act.
                     On September 21, 2009, DOT OIG provided an ARRA-related presentation at the Pacific Northwest Intergovernmental
        3            Audit Forum in Anchorage, Alaska. The presentation focused on the DOT/OIG’s strategy in overseeing the Department’s
                     implementation of the Recovery Act.
        4
        5
        6
        7
        8
        9
        10

       No.                                    OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for the Future)
                     The Inspector General, Principal Assistant Inspector General for Auditing and Evaluation, and the Assistant Inspector
        1            General for Investigations will be speaking on ARRA related issues at the October 21-23, Association of Inspectors
                     General Fall Conference in Washington, D.C.
                     Issue "ARRA Advisories" to the Department and Congress when we identify vulnerabilities that could impede DOT’s ability
        2
                     to provide effective oversight to ARRA-funded projects and meet new requirements
        3            Continue to monitor for fraudulent schemes in the contracting process.
                     Continue fraud prevention and awareness briefings and outreach efforts. As of September 30, we have nine fraud
        4
                     prevention and awareness training sessions scheduled for October.
        5
        6
        7
        8
        9
        10




                                                                                                            DOT OIG Monthly Report Num 7 09-30-09
                                                                                   OIG Recovery Act Monthly Report


Monthly Update Report Data (sheet 4 of 4) Version 4.0
  Reporting OIG: Department of Transportation ‐ OIG
   Month Ending 09/30/2009
           Date:

                                                                                      TRAINING ACTIVITIES
                                                                                                                                                   Hours of
                                                                                                                     Length of                     Training                 Presentation    Average
                                                  Target                             Training Location   Date of                   Number of                     Cost of
     No.               Type of Training                        Title of Training                                     Training                     Provided                   with Other    Evaluation
                                                 Audience                               (City, State)    Training                 Participants                   Training
                                                                                                                      (hours)                      (length x                    OIGs         Rating
                                                                                                                                                 participants)
                                                            ARRA Fraud Awareness Philadelphia,
      1         Fraud Prevention/Awareness    Federal                                                     9/2/2009            1             15              15
                                                            and Prevention Briefing Pennsylvania

                                                            ARRA Fraud Awareness
      2         Fraud Prevention/Awareness    State                                 Hanover, Maryland     9/2/2009            1                              0
                                                            and Prevention Briefing
                                                            Fraud Awareness
      3         Fraud Prevention/Awareness    State                                  Delaware            9/21/2009            1             20              20
                                                            Presentation
                                                            ARRA Fraud Awareness
      4         Fraud Prevention/Awareness    Local                                 Florida              9/11/2009            1                              0
                                                            and Prevention Briefing

                                                            ARRA Fraud Awareness Baton Rouge,
      5         Fraud Prevention/Awareness    Mixed                                                      9/28/2009            1           100              100
                                                            and Prevention Briefing Louisiana

                                                            ARRA Fraud Awareness Jackson,
      6         Fraud Prevention/Awareness    Mixed                                                      9/28/2009            1           263              263
                                                            and Prevention Briefing Mississippi

                                                            American Contract
      7         Fraud Prevention/Awareness    Mixed         Compliance Association Fort Worth, Texas     9/16/2009            1             50              50
                                                            Annual Conference
                                                            Minnesota and
      8         Fraud Prevention/Awareness    Mixed         Wisconsin 2009 Public    Duluth, Minnesota   9/23/2009            1             40              40
                                                            Transit Conference
                                                            Wyoming Division
                                                            FHWA ARRA Fraud
      9         Fraud Prevention/Awareness    Federal                                Wyoming             9/22/2009            1             15              15
                                                            Prevention and
                                                            Awareness Briefing
      10                                                                                                                                                     0
      11                                                                                                                                                     0
      12                                                                                                                                                     0
      13                                                                                                                                                     0
      14                                                                                                                                                     0
      15                                                                                                                                                     0
                                                                                                                      TOTAL               503              503




                                                                                                                                                                            DOt OIG Monthly Report Num 7 09-30-09
                                                                         OIG Recovery Act Monthly Report


                                      OUTREACH ACTIVITIES
                                        Number of
                                      Organizations                              Outreach
         Organization to which                          Description of                            Date of
No.                                   Represented at                           Location (City,
          Outreach Provided                               Outreach                               Outreach
                                        Outreach                                  State)
                                         Session
      Rhode Island Airport
1                                                 1 Liaison with stakeholder Rhode Island          9/3/2009
      Corporation
                                                    Discussion about Rhode
                                                    Island stimulus efforts
      Rhode Island Department of
2                                                 2 and training for RIDOT    Rhode Island        9/24/2009
      Transportation
                                                    inspectors and resident
                                                    engineers
                                                    Discussion about zero-
      New York Metropolitan                                                   New York, New
3                                                 1 tolerance approach to                          9/3/2009
      Transportation Authority                                                York
                                                    fraud on MTA projects
      New York State Department of                  Discussion about ARRA
4                                                 1                           New York             9/3/2009
      Transportation                                oversight
                                                    Discussion about status
      New York Metropolitan                                                 New York, New
5                                                 1 of New York state                             9/10/2009
      Transportation Authority, OIG                                         York
                                                    stimulus task force
                                                    Facilitate fraud briefings
      Tennessee Department of                       and obtain information
6                                                 1                            Tennessee          9/24/2009
      Transportation                                on specific ARRA
                                                    projects




                                                                                                              DOt OIG Monthly Report Num 7 09-30-09
